                               CLOSEOUT OF M96030006
         The complainant1 contacted OIG on March 8, 1996, at the suggestion of a NSF
program d i e c t ~ r .The
                        ~ complainant had two concerns that he wanted OIG to look into. His
first concern was that administrators at his university may have used his ideas and material in
proposals other than his. He was primarily interested in determining if either subject l3 or
subject 24 had passed along his ideas to other faculty members for them to include in their
proposals since 1994. He mentioned several broad areas that he claims he told subject 1 are
important research areas for the h r e and he thinks some of his ideas within these research
areas might have been provided to other researchers at his university. His second concern was
that his university had mismanaged his NSF funding and had raised barriers to his
accomplishing his work. He said that the university had charged his account for Mastructure
support that they should have provided and that sufficient funds were no longer available to
pay a subcontracted collaborator.
        OIG determined the second concern was a management, not a misconduct in science,
issue and OIG contacted the appropriate program officers, who in turn contacted the Division
of Grants and Agreements. All parties agreed that it would be handled independently of OIG.
        Regarding the first concern, OIG used the IBM data base to determine that neither
subject had a record of a NSF proposal submission as a PI or co-PI. OIG examined 19
proposals, submitted by the university since 1994, to search for evidence of overlap between
the complainant's ideas and those presented in the proposals. Since the complainant had made
only broad allegations of intellectual theft, it was d i c u l t to come to a dehitive conclusion
based only on his general description of his ideas. OIG requested that the complainant provide
evidential material that might help pinpoint his specific contributions that he felt might have
been misappropriated.
        The complainant provided three documents that he identified as being "clearly in the
hands of [subject 11 and his office" and reiterated his concern that his ideas were being fed to
other people. Two of the documents he sent were very general and were probably meant to
provide motivation and requirements necessary to initiate a collaboration between the
university and interested business partners. The concepts and ideas presented in these two fles
were primarily business-oriented and organizational in structure and would not likely be used in
a proposal submitted to NSF. Furthermore, they lacked scientific specificity and uniqueness
necessary to make a case for intellectual theft. The third document was more scientific and



' (footnote redacted).
 (footnote redacted).
 (footnote redacted).
 (footnote redacted).

                                          Page 1 of 2
                                    Closeout of M96030006

was apparently a seminar the complainant presented. The ideas and concepts were more
identifiable as unique to the complainant.
         As an example of his concern, the subject indicated that he had heard rumors that some
of his ideas were incorporated into a recent proposal submitted to NSF by his university. He
added that NSF had subsequently fhnded this proposal. OIG used FasfLane to search all
grants awarded to the university during the last five years. The grant mentioned by the
complainant was an
                  The PI for this grant had a history, beginning before 1994, of submitting
educational proposals. Besides, none of the complainant's documents mention an education
component. In addition, there was no apparent overlap between the complainant's ideas and
the abstracts of the university's grants since 1994, except for a conference award that listed
subject 1 as a committee organizer, but not as a PI. The PI of this grant had organized this
conference, with NSF support, several times dating back to 1986, well before the time fiame of
interest to the complainant. Moreover, this PI had the most overlap of research area with the
complainant, but had no proposals (within three years) submitted in the scientific research area
the complainant mentions.
        OIG determined fiom reading the proposals and using the FastLane search that there
was no evidence for the concerns of the complainant that his ideas had been misappropriated
by the subjects, or anyone else in his university, since 1994.
        This inquiry is closed and no fbrther action will be taken on this case.



cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                           Page 2 of 2
